February 5, 2020

Wiley Rein LLP
1776 K Street NW
Washington, DC 20006
Tel: 202.719.7000

Scott S. Harris, Esq., Chief Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Shaniz West v. Doug Winfield, et al., No. 19-899
Dear Mr. Harris:
Along with co-counsel, I am responsible for preparing a response to the Petition for Writ of
Certiorari in the matter referenced above.
Pursuant to Rules 15.3 and 30.4, Respondents request that the time to file a brief in opposition
to the Petition for a Writ of Certiorari be extended by 30 days. The case was docketed on
January 21, 2020. Consequently, the brief in opposition must currently be filed by February 20,
2020. The new requested filing date would thus be March 23, 2020, taking account of Rule
30.1. This is the Respondents’ first request for an extension of time.
Respondents recently retained this firm and co-counsel to prepare a brief in opposition to the
Petition. In light of multiple professional commitments predating retention in this case, including
preparing Petitions for Writs of Certiorari in Winters, et al., v. Palowsky, et al., filed on February
3, 2020, and Kyle Brooks v. Colorado, due on February 20, 2020, as well as preparing three
briefs to be filed in confidential arbitration proceedings and other commitments, undersigned
counsel requires additional time to review the record, research the legal issues, and prepare the
brief in opposition. An extension of thirty days is reasonably necessary for the Respondents to
prepare an adequate response. Accordingly, counsel requests the extension of time specified
above.
As indicated by the enclosed certificate of service, we have concurrently served a copy of this
letter upon counsel for the Petitioner. In addition to sending the original overnight to the Court,
we have also electronically filed a copy of this letter.
Thank you for your courtesy and prompt consideration of this request.
Respectfully,
Richard A. Simpson
Counsel of Record

